                                       SOCIAL SECURITY
MEMORANDUM

Date:      January 14, 2002                                                     Refer To:

To:        Jo Anne B. Barnhart
           Commissioner

From:      Inspector General

Subject:   Performance Measure Review: Reliability of the Data Used to Measure Anti-Fraud
           Performance (A-02-01-11013)


           Following consultations with congressional committees, the Office of the Inspector
           General (OIG) agreed to review the Social Security Administration’s performance
           indicators over a continuous 3-year cycle. We recently completed our first 3-year
           cycle. In conducting this work, we used the services of an outside contractor,
           PricewaterhouseCoopers (PwC), LLP, to assist us in our efforts.

           For this report, we used PwC to conduct the review of four of the Agency’s performance
           indicators related to anti-fraud activities. The objective of the review was to assess the
           reliability of the data used to measure the Agency’s anti-fraud efforts. These anti-fraud
           indicators measure the results of the work conducted by the Office of Investigations
           within OIG. To ensure an independent review of these indicators, we relied on our
           contractor to assess the reliability of the data behind these measures.

           The attached final report presents the results of the contractor’s work and its
           recommendations for improvement. We are generally in agreement with all of the
           contractor’s recommendations focusing on OIG operations. In fact, we are taking steps
           to ensure that OIG produces an accurate assessment of its anti-fraud activities. We
           plan to work closely with the Agency on those recommendations where coordination
           would be appropriate. If you wish to discuss the final report, please call me or have
           your staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
           (410) 965-9700.




                                                           James G. Huse, Jr.

           Attachment
            OFFICE OF
     THE INSPECTOR GENERAL

 SOCIAL SECURITY ADMINISTRATION



   PERFORMANCE MEASURE REVIEW:
   RELIABILITY OF THE DATA USED TO
        MEASURE ANTI-FRAUD
            PERFORMANCE

     January 2002       A-02-01-11013



EVALUATION REPORT




                    .
                                      Mission

We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration  officials, the Congress, and the public.

                                     Authority

The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  0   Conduct and supervise independent and objective audits and
      investigations relating to agency programs and operations.
  o   Promote economy, effectiveness, and efficiency within the agency.
  0   Prevent and detect fraud, waste, and abuse in agency programs and
      operations.
  0   Review and make recommendations        regarding existing and proposed
      legislation and regulations relating to agency programs and operations.
  0   Keep the agency head and the Congress fully and currently informed of
      problems in agency programs and operations.

  To ensure objectivity,   the IG Act empowers   the IG with:

  o   Independence to determine what reviews to perform.
  0   Access to all information necessary for the reviews.
  0   Authority to publish findings and recommendations    based on the reviews.

                                       Vision

By conducting independent and objective audits, investigations,  and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
Evaluation of Selected Performance
Measures of the Social Security
Administration:
Reliability of the Data Used to Measure
Anti-Fraud Performance

Office of the Inspector General
Social Security Administration
INTRODUCTION

This report is one of five separate stand-alone reports, corresponding to the following
Social Security Administration (SSA) process and performance measures (PM):

q   Number of investigations conducted (i.e., closed) (PM #5)
      Fiscal Year (FY) 2000 Goal: 7,600

q   Old-Age, Survivors and Disability Insurance (OASDI) dollar amounts reported from
    investigative activities (PM #6)
        FY 2000 Goal: $40 million

q   Supplemental Security Income (SSI) dollar amounts reported from investigative
    activities (PM #7)
        FY 2000 Goal: $80 million

q   Number of criminal convictions (PM # 8)
      FY 2000 Goal: 1,800

This report reflects our understanding and evaluation of the process related to PMs #5
through #8. To achieve its strategic goal “To make SSA program management the best-
in-business, with zero tolerance for fraud and abuse,” SSA has developed several
strategic objectives. One of these objectives is “To aggressively deter, identify, and
resolve fraud.” SSA’s FY 2001 Annual Performance Plan (APP) contains four
performance indicators developed to meet this objective as follows:

q   Number of investigations conducted (i.e., closed) - Prior to FY 2000, this goal was
    based on cases opened. The FY 2000 goal was revised upward from 7,200 to 7,600
    investigations conducted (i.e., closed) in SSA’s FY 2000 Revised Final Performance
    Plan; this reflects the benefits of increased resources the Office of the Inspector
    General (OIG) devoted to investigative activities.

q   OASDI dollar amounts reported from investigative activities - The FY 2000 goal was
    revised upward from $9 million to $40 million in SSA’s FY 2000 Revised Final
    Performance Plan; this reflects an anticipated return on investment from investigative
    activities as described above.

q   SSI dollar amounts reported from investigative activities - The FY 2000 goal was
    revised upward from $55 million to $80 million in SSA’s FY 2000 Revised Final
    Performance Plan to reflect an anticipated return on investment from investigative
    activities as described above.

q   Number of criminal convictions - The FY 2000 goal was 1,800 convictions.

We performed our testing from September 21, 2000 through February 15, 2001. Our
engagement was limited to testing at SSA’s headquarters in Woodlawn, Maryland and
the OIG office in Philadelphia, Pennsylvania. The procedures that we performed were in
accordance with the American Institute of Certified Public Accountants’ Statement on
Standards for Consulting Services, and are consistent with appropriate standards for
performance audit engagements in Government Auditing Standards (Yellow Book, 1994



                                              1
version). However, we were not engaged to and did not conduct an audit, the objective
of which would be the expression of an opinion on the reliability or accuracy of the
reported results of the performance measures evaluated. Accordingly, we do not
express such an opinion.

BACKGROUND

SSA has been engaged in an aggressive program to deter, detect, investigate and
prosecute fraud. To carry out this effort, SSA and the OIG have cooperated in
developing a comprehensive anti-fraud plan. The SSA OIG, Office of Investigations (OI)
is responsible for investigating allegations of fraud, waste and abuse. The four
indicators evaluated focus on the OIG’s output efforts to achieve improvements in
deterring, identifying and resolving fraud.

The first performance measure, “Number of investigations conducted,” represents the
number of investigations “conducted” by OI resulting from allegations that have sufficient
information or potential risk to warrant further review or action by a criminal investigator.
Allegations may be received from Congress, SSA employees, or from the public by mail,
e-mail, fax, Internet, or telephone (i.e., 800 Hotline). Investigations are counted as
“conducted” when all OI actions have been completed or the investigator has determined
that further action is not warranted due to lack of investigative leads. The objective is to
raise the number of investigations conducted (i.e., closed), which relates to the strategic
goal to aggressively deter, identify and resolve fraud. This performance measure is
presented as a workload count, and includes every closed case, including cases for
which it was determined that no fraud was involved.

The second and third performance measures, “OASDI dollar amounts reported from
investigate activities” and “SSI dollar amounts reported from investigative activities,”
represent amounts reported by the OI from fines/penalties, assessments, savings,
recoveries and restitution/judgments related to investigative activities. The components
of investigative activities, or “monetary achievement” are defined as follows:

q   Fines/penalties are court-ordered, and include any special assessment fees,
    imposed upon conviction in a criminal case or judgment in a civil case, which require
    a specified sum of money be paid to the court.
q   Program savings is a calculation of the avoidance of actual dollar loss by actions that
    result in the termination of improper payments of program funds, which only can
    relate to SSA cases.
q   Restitution can only be recorded in a criminal case, in which the court-ordered
    repayment that resulted from pretrial diversions and convictions. The amount of
    restitution may be categorized as SSA or non-SSA program amounts. In addition,
    the amount of the restitution claimed by OI should match the amount of restitution
    documented on the Judgment and Commitment Order (J&C) or Pretrial Diversion
    agreement.
q   A judgment is a judicially ordered payment resulting from a civil action, either through
    Department of Justice civil proceedings or the Civil Monetary Penalty Program,
    which can be categorized as SSA or non-SSA program related. The distinguishing
    characteristic of a judgment is its nexus to a civil action, as opposed to a criminal
    restitution.




                                             2
q   A scheduled recovery is a total sum of non-court ordered repayment of funds to
    which an individual was not entitled, or the total of funds to be returned because the
    individual was not entitled, which can be categorized as SSA or non-SSA program
    related. In those SSA program cases in which the court does not order restitution
    because of a defendant’s inability to pay, OI will provide a copy of the J&C to SSA,
    accompanied by a memorandum requesting SSA to recover the program losses.
    SSA’s initiation of withholding future payments will constitute a scheduled recovery.

The objective is to report the dollar values of the OI efforts/activities to identify and
resolve fraud, which is directly related to the strategic goal “To aggressively deter,
identify and resolve fraud.”

The last performance measure, “Number of Criminal Convictions,” represents the
number of criminal convictions as a result of OI activities. This performance measure is
presented as a workload count of all cases concluding in a criminal conviction. In
addition to purposes served by formally charging a person with the commission of a
crime, the criminal prosecution process has an impact, which may deter others from
committing violations, and therefore is directly related to the strategic goal “To
aggressively deter, identify and resolve fraud.”

Allegation and Case Investigative System (ACIS)

Information concerning potential wrongdoing involving SSA programs, employees, or
operations which are received by an SSA OIG component are accounted for in ACIS.
The system encompasses the initial receipt of an allegation, all steps taken throughout
the investigative process, and the final outcome of all investigations. The system
resides in a database (ADABAS) application, at the Center for Information Technology
(CIT) of the National Institutes of Health (NIH).

The ACIS process begins with the receipt of an allegation. The Allegation Management
Division (AMD) staff records these allegations in the allegation management module of
ACIS. They are then electronically forwarded to either an OI field division (FD), a SSA
field component, another agency, or are closed. Allegations may be received from
Congress or from the public via mail, e-mail, fax, Internet, or telephone (i.e., 800
Hotline). FDs may also receive allegations directly, and are also required to enter the
allegation information into ACIS. If an investigation is warranted, all information and
supporting documentation will be forwarded to the appropriate individuals within the FD.

When an investigation is opened, ACIS generates an OI-1, ACIS Case Opening Report.
To complete and document an investigation, the Special Agent (SA) is required to
complete a series of forms. Once the case is taken to court, if the court orders a
restitution or judgment, the agent completes the OI-68, Report of Court Ordered
Restitution/Judgment. The OI-671, Monetary Achievement Worksheet, may also
accompany an OI-68. The OI-67 is the form used to document any civil monies
recovered during the investigation, as well as to assist in calculating the monetary
achievement documented on the OI-68. Once all aspects of the investigation are
completed the SA completes an OI-9, ACIS Criminal and Administrative Disposition
Form. This form includes the judicial and criminal disposition data, as well as criminal
1
 The OI-67 has been discontinued by OI since the information reported on the form is also reported on the
OI-9.



                                                    3
and administrative monetary achievements, and is used by the administrative personnel,
SAs, Assistant Special Agents-in-Charge (ASAC) or Special Agents-in-Charge (SAC) to
input the monetary achievements into ACIS.

The OI-68 is mailed to OI Manpower and Administration Division (MAD) in Woodlawn,
Maryland. It is then reviewed against the data, which is entered into ACIS for accuracy
and distributed to SSA’s Debt Management Section for notification of the court-ordered
restitution. In addition, the OI-68 and the payments are sent to the Mid-Atlantic Program
Service Center (MATPSC) to be processed. The MATPSC cross-references the checks
to the OI-68 and posts them to the correct Social Security numbers (SSN).

RESULTS OF EVALUATION

During the period of September 21, 2000 to February 15, 2001, we evaluated the current
processes, systems and controls, which support the FY 2000 SSA performance
measurement process. In addition, we determined the accuracy of the underlying
performance measure data. Our evaluation of the information provided by SSA
management as of February 15, 2001, allowed us to determine that the reported FY
2000 results of the four performance measures tested (as itemized below) were
reasonably stated based on the methodology used by SSA.



                      Performance Measure                          Reported Result

   1. Number of investigations conducted (i.e., closed)                        8,051

   2. OASDI dollar amounts reported from investigative                    $46 million
      activities

   3. SSI dollar amounts reported from investigative                    $128 million
      activities

   4. Number of criminal convictions                                           2,604



However, we noted certain deficiencies in SSA’s methodology used to analyze the
performance measures and certain limitations with ACIS. Although we do not consider
any of the deficiencies noted during our evaluation to be significant, consideration should
be given to the following recommendations, as we believe there are opportunities for
improvement, thereby increasing the value of the performance measures as
management tools.

1. ACIS has some data integrity deficiencies.
2. The savings calculation is not adequately supported.
3. SSA OIG lacks sufficient documentation for several key control areas related to
   ACIS. These areas are change control policies and procedures, user access
   recertification procedures and systems development documentation.
4. SSA OIG lacks appropriate supervisory review in the change control process.



                                            4
5. OASDI and SSI dollar amounts from investigations may be over or understated.

These items were noted as a result of our testing the underlying performance measure
data, as well as the Electronic Data Processing (EDP) and manual controls of the
systems generating the performance measure data, and are discussed in detail below.

1. ACIS has some data integrity deficiencies.

To ensure that the amounts reported in the SSA Government Performance and Results
Act of 1993 (GPRA) section of the Performance and Accountability Report were
reasonably accurate and reliable, we obtained a random sample of 45 OASDI, 45 SSI
and 20 criminal conviction cases from the ACIS system and requested supporting
documentation for each of the cases. In addition, we judgmentally selected 10 cases
from the closed-case cabinet at the Philadelphia sub-office, traced them to ACIS and
ensured the cases were properly documented.

The results of our evaluation of the cases are as follows:

q   Overstatement of OASDI Monies from Investigative Activities

We noted that 5 of the 45 OASDI cases evaluated had double-counting errors totaling
$235,911 for OASDI amounts reported from investigative activities. This resulted from
dollar amounts in both the scheduled recovery and restitution fields in ACIS. Per the
Special Agent Handbook (SAH), these two fields are mutually exclusive, and therefore a
case should not have the same dollars entered in both fields. These two fields are then
combined with savings, judgments, settlements, fines, assessments, and penalties to
arrive at the OASDI monies from investigative activities.

q   Policy Errors

In our evaluation of the 120 ACIS cases selected, we found 2 cases in which the
procedures used to calculate savings were not consistent with those procedures outlined
in the SAH. The first was a fugitive felon case, for which the amount of savings was
calculated over 3 years. Per the SAH, Chapter 3, Section 3-75-C8 “Program savings for
fugitive felon cases will be calculated on a 2-year projection.” In the second case OI
found an individual embezzling benefit checks from an entitled beneficiary. A savings
amount was calculated for this case, even though in a similar case, savings were not
calculated.

q   Data Anomalies

Our evaluation of the cases also noted that 36 out of the 120 ACIS cases selected
contained data anomalies. The data anomalies represent instances where ACIS data
did not match the data reported in the supporting documentation (OI-68, OI-9, OI-4, or
OI-1). For example, in several cases the fraud loss entered into ACIS was higher than
the fraud loss reported in the supporting documentation. In some cases, the recovery or
assessment included in the supporting documentation was not reported in ACIS. These
errors could have been caused by either 1) a data entry error made by administrative
personnel, SACs, ASACs or SAs, or 2) by documentation errors within the case file,
made by SAs.



                                             5
OI has in place a supervisory review of case files at the field division level. However, the
supervisory review, Form OI-20, includes a review of the status of the case, not a review
of the forms within the case file to ensure that the forms are completed appropriately.
The SAH, Chapter 3, Section 3-60 B, states the following: “While the review of
documents and evidence in the case file is important, the case review process should
not be viewed as merely a review of documents. Rather it is an evaluation of the
investigative progress and potential of the SA’s cases.” In addition, the SAH does not
include procedures to ensure that the data entered in ACIS by the OI field divisions is
correct.

Although the OI MAD has a Quality Review process, this process is limited to a
comparison of Form OI-68 “Report of Court-Ordered Restitution/Judgment” to the
restitution report produced at MAD, and the restitution amounts reported in ACIS. In
addition, since not all cases require an OI-68, not all cases are reviewed. The lack of
supervisory review of the forms and limited review by OI Headquarters has led to errors
going undetected, thus diminishing the accuracy of the number reported by OI as part of
the GPRA section of SSA’s Performance and Accountability Report.

ACIS is an antiquated system that lacks sufficient capabilities to continue to meet OIG’s
needs. The OIG stated that the system has been “frozen” and that it is in the process of
evaluating commercial off the shelf software packages as an alternative system. These
data integrity opportunities for improvement should be considered when selecting and
implementing the new system.

2. Savings calculation for disability cases is not adequately supported.

A program saving is an integral part of the dollars reported from the investigative
activities calculation. For disability cases, the cooperative disability investigation (CDI)
teams claim a set amount of savings of $66,500 per case, for applicants who are denied
eligibility due to the findings of the investigation. SSA arrived at this figure in 1997 by
applying the amount of an average lifetime benefit figure to an average Disability
Determination Services claim that is denied. This amount has not been adjusted since
1997 to reflect the yearly increase of SSI benefit payments. OI, in conjunction with
SSA’s Office of the Actuary, is currently developing a method to calculate the savings
figure for each case based on a claimant’s age, gender, life expectancy and amount of
benefit received. The new method will be applied to all CDI cases beginning in FY 2002.

3. SSA OIG lacks sufficient documentation for some control areas related to
   ACIS.

There is a lack of documentation for some ACIS processes in SSA OIG operations, as
follows:

q   ACIS Change Control: Process in which any modification requests to ACIS, and
    subsequent modifications of ACIS are formally requested, documented, tested, and
    implemented.

q   ACIS User Access Recertification: Review of users’ access rights to ACIS, to
    ensure that their access matches their job responsibilities.




                                             6
q   ACIS System Design and Development: System design and development
    documentation includes addressing the entire life cycle of a system, (i.e., initiation,
    definition, system design, programming and training, evaluation and acceptance, and
    installation and operations). As such it would include, for example, the functional
    requirements, data requirements, system/sub-system requirements, and both user
    and technical manuals, etc.

Without formally documented processes, management cannot be assured that SSA OIG
personnel understand all of the requirements for successful change control, user access
recertifications, and systems design and development processes.

When processes are not documented, such as formal processes for change control,
user access recertification, and ACIS system design and development, there is no
accountability that the procedures were followed. When there is no accountability for the
procedures associated with these processes, it becomes difficult to resolve any
problems or issues. This lack of assurance may negatively impact SSA OI operations.

4. SSA OIG lacks appropriate supervisory review in the change control process.

Both of the OIG personnel that are responsible for programming ACIS changes have the
ability to promote program changes to production. This increases the risk that
inappropriate or incorrect changes could be placed into production, thereby
compromising the functionality of ACIS.

Office of Management and Budget (OMB) Circular A-130, Appendix III, Security of
Federal Automated Information Resources, states that agencies are required to
establish controls to assure adequate security for all information processed, transmitted,
or stored in Federal automated information systems. This appendix stresses the
importance of management controls affecting individual users of information technology.
The appendix states: "Technical and operational controls support management controls.
To be effective, all must interrelate."

In addition, Federal Information Processing Standards (FIPS) Publication 73 entitled
Guidelines for Security of Computer Applications, Section 6.3.4 highlights the increased
risk associated with programmers having access to program code once an application is
operational. This increases the possibility for unauthorized changes to existing code that
could benefit the programmer without being detected.

5. OASDI and SSI dollar amounts from investigations may be over or understated

The program category field within ACIS is used to identify which program (OASDI or
SSI) the fraud was committed against. The possibility exists that an investigation may
involve fraud against both OASDI and SSI concurrently. While agents have the ability to
enter in more than one program category per case into ACIS, the associated Monetary
Statistics report only pulls the information from the first program category in each case.
Therefore, in the case of concurrent fraud, agents are instructed to enter the dollar
amounts into the program category where the greater amount of fraud occurred. This
results in an overstatement of dollar amounts in the program category that the case was
entered into, and an understatement of dollar amounts in the other program category.




                                             7
CONCLUSIONS AND RECOMMENDATIONS

Throughout our evaluation of the four performance measures, we noted the strong
commitment of SSA's OIG staff to correctly implement GPRA. Our evaluation found that
the FY 2000 results of the four performance measures tested were reasonably stated.
However, our evaluation noted that: 1) ACIS has some data integrity deficiencies; 2) the
savings calculation is not adequately supported; 3) SSA OIG lacks sufficient
documentation for several key ACIS control areas; 4) SSA OIG lacks appropriate
supervisory review in the change control process; and 5) OASDI and SSI dollar amounts
from investigations may be over or understated. We recommend that the OIG take the
following corrective actions:

ACIS has a number of data integrity deficiencies.

To ensure that the OI offices across the country are following the procedures outlined in
the SAH, that data entry and documentation errors do not go undetected, and to correct
internal control issues found during our case testing we recommend that OI:

1) Expand its supervisory review of the cases, by including a comprehensive review of
   the contents of all forms included in the case, to ensure the accuracy and
   appropriateness of the information.
2) Perform a FD-level review of the information entered into ACIS either by the SAC, in
   cases where an SA or administrative staff has input the information into ACIS, or by
   a supervisor in cases were the SAC has input the information into ACIS.
3) Expand the Quality Assurance review performed at MAD to include all cases. The
   Quality Assurance process should include a review of the OI-9 “ACIS Criminal and
   Administrative Disposition Form” for all cases and the supporting documentation.
   The review should be documented to enable OI to identify systematic or widespread
   problems throughout the FDs before they cause substantial errors in the information
   reported

These procedures will prevent erroneous data being entered into ACIS in the future, and
therefore prevent inaccurate GPRA reporting.

The savings calculation is not adequately supported.

4) We recommend that OI continue its work with SSA and the Office of the Actuary to
   develop and update savings calculation for CDI cases.




                                            8
SSA OIG lacks sufficient documentation for several key ACIS control areas.

To ensure that the SSA OIG has proper controls in place for change control, user access
recertification, and system design and development, we recommend that the Office of
Executive Operations (OEO):

5) Formalize and then document the change control process. This includes the
   creation of a standardized change control form, incorporating a tracking number, the
   reason for the request, testing, sign-offs and promotion of the program into
   production.
6) Create and document the user access recertification process. This should be an
   annual process, which will ensure all users have access commensurate with their
   position through verification by user management.
7) Document all system design and development information. This documentation
   should provide both the systems management and OEO with the rationale for the
   design, as well as its functionality and data structure. Documentation is especially
   useful during the implementation of new systems.

SSA OIG lacks of appropriate supervisory review in the change control process.

8) SSA OIG should ensure proper authorization exists prior to ACIS program changes
   being promoted to production.
9) In addition, the SSA OIG should use a computer operator, or other non-programmer
   for the actual movement of programs into production.

OASDI and SSI dollar amounts from investigations may be over or understated.

10) To report accurate amounts for the OASDI and SSI dollars associated with
    investigative activities, we recommend that the OIG reconsider the use of the second
    program category and the design of the Monetary Statistics report. Agents should be
    instructed to break the dollar amounts down by program category, and record
    multiple entries for the same subject. This should not affect the number of
    investigations or cases and should produce more accurate OASDI and SSI dollar
    amounts.

APPROPRIATENESS OF THE PERFORMANCE MEASURES

As part of this engagement, we evaluated the appropriateness of each of the
performance measures with respect to GPRA compliance and SSA’s APP. We
determined whether the specific indicators and goals corresponded to the strategic goals
identified in SSA’s APP, determined whether each of these indicators accurately
measure performance, and determined their compliance with GPRA requirements.

The relationships between PMs #5 through 8 and the applicable SSA Strategic Goal is
depicted in the following figure:




                                           9
                                                               SSA Mission
                                      To promote the economic security of the nation's people
                                     through compassionate and vigilant leadership in shaping
                                         and managing America's social security programs.




                                                           Strategic "Goal #3"

                                               To make SSA program management the
                                               best-in-business, with zero tolerance for
                                                           fraud and abuse




                                                           Strategic Objective
                                                To aggressively deter, identify and resolve
                                                                  fraud




    Performance Indicator & Goals   Performance Indicator & Goals        Performance Indicator & Goals     Performance Indicator & Goals

       Number of investigations           OASDI dollar amounts            SSI Dollar amounts reported           Number of Criminal
        conducted (i.e., closed)        reported from investigative       from investigative activities.           Convictions
         FY 2000 Goal 7,600                      activities.              FY 2000 Goal $80 Million              FY 2000 Goal 1,800
                                        FY 2000 Goal $40 Million




The SSA mission is supported by five strategic goals, including Goal 3, “To make SSA
program management the best-in-business, with zero tolerance for fraud and abuse.”
Goal 3, in turn, is supported by several strategic objectives, including the relevant
objective “to aggressively deter, identify, and resolve fraud.” Performance Measures #5
through #8 address the OIG’s OI work related to SSA programmatic fraud. Assuming
that the metrics are reliable, the diagram indicates that PMs #5 - #8 logically align with
SSA’s strategic planning process.

Based on the taxonomy of performance measures included in Appendix F, PMs #5
through #8 are measures of accomplishment because they report on a result achieved
with SSA resources. They are further categorized as output measures because they
indicate the accomplishments or results that occur because of the SSA services
provided. As shown in Appendix F, output measures include the number of
investigations conducted.

Within the framework of GPRA, Performance Measures #5 through #8 fall within the
intent of an output measure because they provide, “…a description of the level of activity
or effort that will be produced.”2 Just as with counts of workload, dollar amounts of
workload are also a “level of activity required” or “workload” measurement. In addition,

2
    OMB Circular A-11, Preparation and Submission of Budget Estimates (FY2000), Section 200.2, p. 478.



                                                                11
one output can be the workload driver for another output (e.g., the number of
investigations conducted is a factor that drives the number of criminal convictions).
Therefore, all four measures are considered output measures. The intent of these four
performance measurements is to address the “zero tolerance for fraud” strategic goal.
They can all be useful to management and external stakeholders, as encouraged by
OMB Circular A-11, which provides guidance on the creation of an agency’s
performance measures. However, if corrective actions are not implemented to correct
the issues identified as part of this report, potential errors in the data may in the future
produce unreliable results.

OTHER MATTERS

As part of this evaluation, we identified several points that the OIG should consider when
designing the new AMS, as well as other less significant matters that are peripheral to
this engagement. The points are discussed below.

There is a need for Service Level Agreements.

In the current organizational structure of the SSA OIG, the personnel responsible for
supporting ACIS are part of the OIG’s OEO. The personnel who use ACIS for their day
to day job functions reside in the OI. During the course of our evaluation, we discovered
that there was not any formal agreement between the OEO and the OI, which details the
expectations and responsibilities of both offices with respect to ACIS and its support.

Control Objectives for Information and related Technology (COBIT)3 developed as
generally applicable and accepted standard for good Information Technology (IT)
security and control practices, states the following:

        “Users and the IT function should have a written agreement which describes the
        service level in qualitative and quantitative terms. The agreement defines the
        responsibilities of both parties. The IT function must offer the agreed quality and
        quantity of service and the users must constrain the demands they place upon
        the service within the agreed limits.”

The lack of such an agreement can lead to miscommunication and unfulfilled
expectations, both of which could hamper the ability of affected OIG staff to perform their
job functions effectively and efficiently. An agreement between both sides, such as a
Service Level Agreement (SLA), could detail each office’s expectations and associated
job duties, and provide accountability for their performance.

Recommendation

11) To ensure continued effective communication between OEO and OI, we recommend
    SSA OIG draft a SLA between these offices, detailing the responsibilities of both
    offices, as well as each office’s expectations. The cognizant personnel in both
    offices should sign this agreement.


3         rd
 COBIT, 3 edition, July 2000. Published by the Information Systems Audit and Control Association &
Foundation. URL:http//:www.isaca.org.




                                                  12
There is no correlation between dollars reported from investigations and dollars
collected by SSA.

Both OASDI and SSI dollars reported from investigative activities are recorded into
ACIS. These figures are collected by case number, and the SSN upon which the fraud
was committed. However, it does not reference the SSN of the individual who
committed the fraud. ACIS does not provide for accounting of the dollars actually
collected and the tracking ceases with the closing of a case.

The accounting for the dollars, which are actually collected by SSA, is performed by
SSA’s Debt Management System (DMS). The DMS contains information on the SSN to
which the payment is posted. This may not always be the SSN that the fraud was
committed against, but may be the SSN of the individual making the payment. Because
the SSNs cannot always be cross referenced, neither the OIG nor DMS can categorize
dollars collected as dollars associated with OIG cases.

Recommendation

12) We recommend SSA’s DMS include an OIG case number with its SSN information, if
    applicable, or that ACIS include the SSN of the individual committing the fraud. This
    will then give both groups the ability to cross reference these payments, and
    accumulate not only the dollars reported from investigative activities, but also the
    dollars that were collected.

The title “Criminal Convictions” for PM #8 is misleading.

The category “Criminal Convictions” contains several types of case resolutions. In
addition to criminal convictions, the category also includes work with immigration and
deportation cases, the satisfaction of a fugitive warrant, and civil judgments. While there
is a footnote explaining that the category contains more than criminal convictions, it does
not specifically state what is included in the total.

Based on our recommendation, OI has changed the name of this performance measure
in the draft SSA’s FY 2003 APP to “Number of Judicial Actions.” In addition, SSA’s FY
2003 APP includes the following definition for Judicial Actions: A judicial action is any
event during the criminal justice process that causes an individual suspected of
committing a crime to be arrested for the crime, or to appear before a judge to enter a
plea of guilty, or to face trial before a judge or jury.

There is a lack of disaster recovery documentation.

ACIS, used by the SSA OIG to maintain its investigation information, resides at the NIH
CIT. As such, the SSA OIG is considered to be a user bureau by NIH, and is
occasionally asked by NIH to participate in its annual disaster recovery tests.

The ACIS systems administrator also performs the duties of a security coordinator at
NIH. As such, NIH notifies him when a disaster occurs and is at that time given his
instructions. However, a formal copy of the NIH disaster recovery plan is not kept by the
SSA OIG.




                                            13
Recommendation

13) To ensure that the SSA OIG has an understanding of the NIH disaster recovery plan
    and its associated responsibilities, we recommend that the SSA OIG request a copy
    of the NIH disaster recovery plan, and that the plan be reviewed and updated for
    specific OIG-related matters on an annual basis.




                                         14
                          APPENDICES


APPENDIX A – Scope and Methodology

APPENDIX B – Acronyms

APPENDIX C – Performance Measure Summary Sheets

APPENDIX D – Performance Measure Process Maps

APPENDIX E – Performance Measure Taxonomy
                                                                          APPENDIX A

                        SCOPE AND METHODOLOGY


The Social Security Administration’s (SSA) Office of the Inspector General (OIG)
contracted PricewaterhouseCoopers, LLP (PwC) to evaluate 11 SSA performance
indicators identified in its Fiscal Year (FY) 2001 Annual Performance Plan (APP). This
report reflects our understanding and evaluation of the process related to PMs #5
through #8. We performed our testing from September 21, 2000 through February 15,
2001. Since FY 2001 performance results were not yet available as of the date of our
evaluation, we performed tests of the performance data and related internal controls
surrounding the maintenance and reporting of the results for FY 2000. Specifically, we
performed the following:

1. Obtained an understanding and reviewed the current Allegation and Case
   Investigative System (ACIS) data flows and processes;
2. Identified and tested critical controls (both electronic data processing (EDP) and
   manual) of ACIS;
3. Tested the accuracy of the underlying FY 2000 data for each of the specified
   performance measures;
4. Recalculated each specific FY 2000 measure to ascertain its mathematical accuracy;

5. Determined whether performance measures were meaningful and in compliance with
   the Government Performance and Results Act of 1993 (GPRA);
6. Evaluated the impact of any relevant findings from prior and current audits with
   respect to SSA's ability to meet performance measure objectives; and
7. Identified findings relative to the above procedures and provided recommendations
   for improvement.

Our engagement was limited to testing at SSA’s headquarters in Woodlawn, Maryland
and the OIG office in Philadelphia, Pennsylvania. The procedures that we performed
were in accordance with the American Institute of Certified Public Accountants’
Statement on Standards for Consulting Services, and are consistent with appropriate
standards for performance audit engagements in Government Auditing Standards
(Yellow Book, 1994 version). However, we were not engaged to and did not conduct an
audit, the objective of which would be the expression of an opinion on the reliability or
accuracy of the reported results of the performance measures evaluated. Accordingly,
we do not express such an opinion.

1. Obtained an understanding and reviewed the current ACIS data flows and
   processes.

We obtained an understanding of the underlying processes and operating procedures
surrounding ACIS and the generation of performance measures through interviews and
meetings with the appropriate SSA OIG personnel and by reviewing the following
documentation:




                                           A-1
                                                                          APPENDIX A

q   Policies and procedures manual for procedures surrounding the processing,
    accumulating, and reporting of the data for the four performance measures;
q   PwC system walk-through descriptions;
q   PwC system flowcharts;
q   SSA OIG-provided system descriptions, including the ACIS User Manual and the
    Special Agent Handbook;
q   FY 2000 ACIS data and corresponding data definitions;
q   The National Institutes of Health Statement on Auditing Standards (SAS) 70 Reports
    for FY 1999 and FY 2000, describing the general controls surrounding the ACIS
    application;
q   Internal report on Investigation Related Recoveries; and
q   Internal and external reports on the four performance measures (including OIG,
    General Accounting Office, etc.)

2. Identified and tested critical controls (both EDP and manual) of ACIS.

Based on the understanding we obtained during the planning part of this engagement, a
review of related prior-year audit work at SSA, and our understanding of the Federal
Information Systems Controls Audit Manual (FISCAM) methodology, we developed and
performed tests of internal controls (both general and application) related to ACIS, for
the following areas:

q   Access Control (including Separation of Duties);
q   Data Input;
q   Data Rejection;
q   Data Processing (including backup and recovery); and
q   Data Output.

3. Tested the accuracy of the underlying FY 2000 data for each of the specified
   performance measures.

To verify, validate, and test the accuracy of the FY 2000 data we performed the
following:

q   Selected a random sample of 45 OASDI, 45 SSI, and 20 criminal conviction cases
    from ACIS by performing the following:

    a) Obtained a copy of the ACIS data as of September 30, 2000 from the OIG Office
       of Executive Operations;
    b) Created and executed audit control language (ACL) programs to extract random
       samples for Old-Age, Survivors and Disability Insurance, Supplemental Security
       Income and Conviction Cases; and
    c) Created an ACL program to display the monetary figures for the cases selected.

    We requested copies of the OI-1 “Case Opening Report,” OI-9 “ACIS Criminal &
    Administrative Disposition Form” and the OI-68 “Court-Ordered Restitution/Judgment
    Form” and performed the following:



                                          A-2
                                                                          APPENDIX A


    a) Verified that a completed OI-1 was properly signed and completed;
    b) Verified that the OI-68 was completed and was supported by documentation in
       the file;
    c) Verified that a completed OI-9 was properly signed by the Field Division SAC;
    d) Traced the monetary achievement documentation on the OI-9 and OI-68 to the
       amount of monetary achievement in ACIS to ensure the monetary amount
       reported in ACIS was in fact correct; and
    e) Ensured that the OI-4 agreed with information on OI-9, OI-68, and ACIS. OI-4
       obtained from sub-offices that choose to include them in the documentation sent.


q   Judgmentally selected a sample of 10 case files from the closed cases at the
    Philadelphia field division (FD), and with the assistance of FD personnel we traced
    and agreed the OI-9 to the information in ACIS. In addition, we ensured that the
    information included on the OI-9 was valid by performing the following:

    Ensured the following documents were included in the file:

    a) Allegation report (i.e., SSA-8551, Fraud Referral Form).
    b) OI-1 Case Opening Report, properly signed and completed by the FD Special
       Agent-in-Charge (SAC).
    c) Overpayment recipient Numident, and Master Beneficiary Record
       (MBR)/Supplemental Security Record (SSR).
    d) OI-4 Report of Investigation, reviewed and signed by the FD Assistant Special
       Agent-in-Charge (ASAC).
    e) Supervisory File review sheet.
    f) OI-9 ACIS input form, properly signed and completed by the FD SAC. Ensured
       that the OI-9 agreed with the information on the OI-4.
    g) OI-31 Case Closing Checklist reviewed and signed by the FD ASAC.

    For cases involving restitution we ensured that in addition to the above documents
    the case file included the following:

    a) OI-16A Statement of Overpayment Recipient signed by the subject and the SAC.
    b) Copy of check provided by the subject.
    c) Check receipt from SSA personnel.

4. Recalculated each specific FY 2000 measure to ascertain its mathematical
   accuracy

Based on our understanding of SSA and Performance Measures (PM) #5 through #8,
we obtained the FY 2000 ACIS data and performed Computer Assisted Audit
Techniques (CAATs) using ACL to accumulate counts for four measures, and then
compared those results to the figures reported for GPRA. We then reconciled any
differences through data analysis and subsequent discussions with SSA OIG personnel.




                                           A-3
                                                                         APPENDIX A

5. Determined whether performance measures were meaningful and in
   compliance with GPRA

As part of this engagement, we evaluated the appropriateness of each of the
performance measures with respect to GPRA compliance and SSA’s APP. We
determined whether the specific indicators and goals corresponded to the strategic goals
identified in SSA’s APP, determined whether each of these indicators accurately
measure performance, and determined their compliance with GPRA requirements.




                                          A-4
                                                            APPENDIX B

                             ACRONYMS


ACIS     Allegation and Case Investigative System
ADABAS   A Database
AMD      Allegation Management Division
AMS      Allegation Management System
APP      Annual Performance Plan
ASAC     Assistant Special Agent-in-Charge
CAATs    Computer Assisted Audit Techniques
CIT      Center for Information Technology
DI       Disability Insurance
DMS      Debt Management System
EDP      Electronic Data Processing
FD       Field Division
FIPS     Federal Information Processing Standards
FISCAM   Federal Information System Controls Audit Manual
FY       Fiscal Year
GPRA     Government Performance and Results Act
IT       Information Technology
J&C      Judgment and Commitment Order
MATPSC   Mid-Atlantic Program Service Center
MBR      Master Beneficiary Record
NIH      National Institutes of Health
OASDI    Old-Age and Survivors and Disability Insurance
OEO      Office of Executive Operations
OI       Office of Investigations
OIG      Office of the Inspector General
OMB      Office of Management and Budget
PM       Performance Measure
PwC      PricewaterhouseCoopers LLP
SA       Special Agent
SAC      Special Agent-in-Charge
SAH      Special Agent Handbook
SAS      Statements on Auditing Standards
SLA      Service Level Agreement
SSA      Social Security Administration
SSI      Supplemental Security Income
SSN      Social Security number
SSR      Supplemental Security Record
                                                                                                                                  APPENDIX C

                                     PERFORMANCE MEASURE SUMMARY SHEETS

Name of Measure                                            Measure Type                Strategic Goal/Objective
5) Number of investigations conducted (i.e., closed)       Workload                    Goal: To make SSA program management the best-in-
                                                                                       business, with zero tolerance for fraud and abuse.
                                                                                       Objective: To aggressively deter, identify and resolve
                                                                                       fraud.
Purpose                                                                                                            Report Frequency
To increase the number of investigations conducted resulting from allegations that have                            Semiannual
sufficient information or potential risk to warrant further review or action by a criminal
investigator.
How Computed                                               Data Source                  Data Availability          Data Quality
Investigations are counted as “conducted” when all         ACIS                         Adequate                   Adequate
OIG actions have been completed, i.e., the
investigator has presented the facts of the case to a
prosecutor or has determined that further action is not
warranted due to lack of investigative leads.
Target Goal                                                Division                     Designated Staff Members
7,600                                                      OIG                          Mike Arbuco, Amy Shemenski, Dennis Fabel,
                                                                                        Dawn Zgorski, Oliver Webb
EDP Controls Testing and Results
We performed tests of internal controls (both general and application) related to ACIS, for the following areas:
· Access Control (including Separation of Duties);
· Data Input;
· Data Rejection;
· Data Processing (including backup and recovery); and
· Data Output.
Refer to “Results of Evaluation” for a description of the findings.
                                                                                                                              APPENDIX C
CAATs Testing and Results
We obtained the FY 2000 ACIS data and performed CAATs using ACL to accumulate counts for this measure, and then compared those results
to those reported for GPRA. We then reconciled any differences through data analysis and subsequent discussions with SSA OIG personnel.

Refer to “Results of Evaluation” for a description of the findings.
Data and Manual Controls Testing and Results
We verified the completeness and accuracy of the ACIS data by judgmentally selecting a sample of 10 case files from the closed cases cabinet
in the Philadelphia OI office and performed the following:
·  Ensured the following documents were included in the file:
a) Allegation report (i.e., SSA-8551, Fraud Referral Form, or other type of allegation report)
b) OI-1 Case opening report, properly signed and completed by the field division SAC
c) Overpayment recipient Numident, and MBR/SSR
d) OI-4 Report of Investigation, reviewed and signed by the field division ASAC
e) Supervisory File review sheet
f) OI-9 ACIS input form, properly signed and completed by the Field Division SAC. Ensured that the OI-9 agreed with the information on the
   OI-4.
g) OI-31 Case closing Checklist, reviewed and signed by the field division ASAC
·    For cases involving restitution, ensured that in addition to the above documents the case file included the following:
     d) OI-16A statement of overpayment recipient signed by the claimant and the SAC
     e) Copy of check provided by the claimant
     f) Check receipt from SSA personnel
·    Traced and agreed the information in the OI-9 to the information in ACIS.

Refer to “Results of Evaluation” for a description of the findings.
                                                                                                                                     APPENDIX C


Name of Measure                                            Measure Type                Strategic Goal/Objective
6) OASDI dollar amounts reported from                      Workload                    Goal: To make SSA program management the best-in-
investigative activities                                                               business, with zero tolerance for fraud and abuse.
                                                                                       Objective: To aggressively deter, identify and resolve
                                                                                       fraud.
Purpose                                                                                                            Report Frequency

To report OASDI dollars from penalties, assessments, savings, recoveries and restitutions related to               Semi-Annual
investigative activities.
How Computed                                               Data Source                  Data Availability          Data Quality
OASDI dollars from penalties, assessments, savings         ACIS                         Adequate                   Adequate, except for the data
recoveries, and restitutions related to investigative                                                              integrity anomalies found as part
activities that are reported by OIG filed divisions and                                                            of our evaluation. Refer to
included in OIG semi-annual reports.                                                                               “Results of Evaluation” for a
                                                                                                                   description of the findings.
Target Goal                                                Division                     Designated Staff Members
$ 40 Million                                               OIG                          Mike Arbuco, Amy Shemenski, Dennis Fabel,
                                                                                        Dawn Zgorski, Oliver Webb
EDP Controls Testing and Results
We performed tests of internal controls (both general and application) related to ACIS, for the following areas:
· Access Control (including Separation of Duties);
· Data Input;
· Data Rejection;
· Data Processing (including backup and recovery); and
· Data Output.

Refer to “Results of Evaluation” for a description of the findings.
CAATs Testing and Results
We obtained the FY 2000 ACIS data and performed CAATs using ACL to accumulate counts for this measure, and then compared those results
to those reported for GPRA. We then reconciled any differences through data analysis and subsequent discussions with SSA OIG personnel.

Refer to “Results of Evaluation” for a description of the findings.
                                                                                                                          APPENDIX C
Data and Manual Controls Testing and Results
To ensure that accuracy of the reported information we selected a judgmental sample of 45 OASDI cases from ACIS and performed the
following:
·   Verified that a completed OI-9 “ACIS input form” was properly signed by the Field Division SAC
·   Verified that a completed OI-1 form was properly signed and completed
·   Verified that the OI-68 has been completed and was supported by documentation in the file
·   Trace monetary achievement documentation in case file to amount of monetary achievement reported in ACIS

Refer to “Results of Evaluation” for a description of the findings.
                                                                                                                                     APPENDIX C



Name of Measure                                            Measure Type                Strategic Goal/Objective
7) SSI dollar amounts reported from                        Workload                    Goal: To make SSA program management the best-in-
investigative activities                                                               business, with zero tolerance for fraud and abuse.
                                                                                       Objective: To aggressively deter, identify and resolve
                                                                                       fraud.
Purpose                                                                                                            Report Frequency
To report SSI dollars from penalties, assessments, savings, recoveries and restitutions related to                 Semi-annual
investigative activities.
How Computed                                               Data Source                  Data Availability          Data Quality
SSI dollars from penalties, assessments, savings           ACIS                         Adequate                   Adequate, except for the data
recoveries, and restitutions related to investigative                                                              integrity anomalies found as part
activities that are reported by OIG filed divisions and                                                            of our evaluation. Refer to
included in OIG semi-annual reports.                                                                               “Results of Evaluation” for a
                                                                                                                   description of the findings.
Target Goal                                                Division                     Designated Staff Members
$ 80 Million                                               OIG                          Mike Arbuco, Amy Shemenski, Dennis Fabel, Dawn
                                                                                        Zgorski, Oliver Webb
EDP Controls Testing and Results
We performed tests of internal controls (both general and application) related to ACIS, for the following areas:
· Access Control (including Separation of Duties);
· Data Input;
· Data Rejection;
· Data Processing (including backup and recovery); and
· Data Output.
Refer to “Results of Evaluation” for a description of the findings.
CAATs Testing and Results
We obtained the FY 2000 ACIS data and performed CAATs using ACL to accumulate counts for this measure, and then compared those results
to those reported for GPRA. We then reconciled any differences through data analysis and subsequent discussions with SSA OIG personnel.

Refer to “Results of Evaluation” for a description of the findings.
                                                                                                                               APPENDIX C
Data and Manual Controls Testing and Results
To ensure that accuracy of the reported information we selected a judgmental sample of 45 SSI cases from ACIS and performed the following:
·   Verified that a completed OI-9 “ACIS input form” was properly signed by the Field Division Special Agent In Charge (SAC)
·   Verified that a completed OI-1 form was properly signed and completed
·   Verified that the OI-68 has been completed and was supported by documentation in the file
·   Traced monetary achievement documentation in case file to amount of monetary achievement reported in ACIS

Refer to “Results of Evaluation” for a description of the findings.
                                                                                                                                  APPENDIX C


Name of Measure                                             Measure Type                Strategic Goal/Objective
8) Number of Criminal Convictions                           Workload                    Goal: To make SSA program management the best-in-
                                                                                        business, with zero tolerance for fraud and abuse.
                                                                                        Objective: To aggressively deter, identify and resolve
                                                                                        fraud.
Purpose                                                                                                            Report Frequency
To report the number of criminal convictions as related to SSA/OIG investigative activities.                       Semi-Annual

How Computed                                                Data Source                  Data Availability         Data Quality
Number of criminal convictions as related to SSA/OIG        ACIS                         Adequate                  Adequate
investigative activities.
Target Goal                                                 Division                     Designated Staff Members
1,800                                                       OIG                          Mike Arbuco, Amy Shemenski, Dennis Fabel,
                                                                                         Dawn Zgorski, Oliver Webb
EDP Controls Testing and Results
We performed tests of internal controls (both general and application) related to ACIS, for the following areas:
· Access Control (including Separation of Duties);
· Data Input;
· Data Rejection;
· Data Processing (including backup and recovery); and
· Data Output.

Refer to “Results of Evaluation” for a description of the findings
CAATs Testing and Results
We obtained the FY 2000 ACIS data and performed CAATs using ACL to accumulate counts for this measure, and then compared those results to
those reported for GPRA. We then reconciled any differences through data analysis and subsequent discussions with SSA OIG personnel.

Refer to “Results of Evaluation” for a description of the findings
                                                                                                                               APPENDIX C
Data and Manual Controls Testing and Results
To ensure that accuracy of the reported information we selected a judgmental sample of 20 criminal convictions from ACIS and performed the
following:
·   Verified that a completed OI-9 “ACIS input form” was properly signed by the Field Division Special Agent In Charge (SAC)
·   Verified that a completed OI-1 form was properly signed and completed
·   Verified that the OI-68 has been completed and was supported by documentation in the file
·   Traced monetary achievement documentation in case file to amount of monetary achievement reported in ACIS

Refer to “Results of Evaluation” for a description of the findings
                                   APPENDIX D
PERFORMANCE MEASURE PROCESS MAPS
                                                                                                        APPENDIX D

                                       Allegation Intake by
                                       Program Specialist




                                    Research ACIS database on
                                     subject name and SSN to
                                      ensure not a duplicate
                                             allegation.




                                                              Yes        Original allegation
                                                                         updated with any
                                           Duplicate?
                                                                             additional
                                                                            information

                                                     No

Field divisions and hotline are
 assigned different allegation
numbers to easily identify the          Computer assigns
  location where allegation             allegation number.
   informatiion was taken.




                                                               Yes             Research SSA
                                          OASDI or SSI                        database to verify
                                           allegation?                        whether allegation
                                                                                could be true

                                                     No



                                        Supervisor reviews




                                                                    No
                                            Possible                                           Archived in
                                            violation?                                          database



                                                     Yes


                                               To
                                              Page
                                               2




                                  Investigation Process cont.



                                                  E-3
                                                                                                                    APPENDIX D
                                                          From
                                                          Page
                                                            1




                      Special Agent        No
                                                    OASDI or SSI
                       In Charge
                                                     allegation?
                         Review


Allegation                                                               Yes
 closed.       No
Archived                Possible                                          No                                        Allegation
    in                  violation?                    OASDI or
                                                                                                                      closed.
database.                                               SSI DI                  ASAC Review
                                                                                                                    Archived in
                    Yes                               violation?
                                                                                                                    database.
                                                                                                    No
                                                                               Yes
                    Allegation sent to
                      Field Division
                                                                                  Possible               Maybe
                                                    Special Agent                 violation?
                                                      Review
                           To                                                                                    Allegation referred
                          Page                                                 Yes                                   to SSA for
                            3                                                                                       development.
                                                                                                                 Allegation remains
                                                                                                                     open until
                                          Yes                                  Allegation sent to                response received
                                                      Possible                   Field Division                      from SSA.
                     ASAC Review
                                                      violation?



                                                                                      To
Allegation                                                                           Page
 closed.      No                                                                                                  Response from
                        Possible                                                       3
Archived                                                                                                              SSA
                        violation?
    in
database.

                                 Yes

                                                     No                                  AMD Hotline
                    Allegation sent to                                                                    No
                                                                                            closes
                      Field Division                                                                                 Possible
                                                                                          allegation.
                                                                                                                     violation?
                                                     Allegation                          Archived in
                                                       closed.                            database.
                                                                                                                  Yes
                                                     Archived in
                           To                        database.
                          Page                                                                                   Allegation sent to
                            3                                                                                      Field Division




                                                                                                                         To
  Note: Most of the time SSA does not send back a response                                                              Page
  indicating their assessment of the allegation forwarded by the                                                          3
  hotline for review. However, SSA completes a 8551 form and
  forwards the possible violation on to the appropriate Field
  Division for investigation via the ACIS system. A new allegation
  number is issued.




                                         Investigation Process cont.



                                                                   E-4
                                                                                                                  APPENDIX D
                                                    From
                                                    Page
                                                      2




                                       Email sent by Hotline Mgmt to
                                     inform OI Field Division (OIFD) of
                                            pending allegations.

                                                                                      Data Corrections: After the end of the
                                                                                      month, no corrections can be made by the
                                                  Allegation                          agents to the case file data contained on
                                              reviewed by Field                       ACIS. The only way data can be corrected
                                                   Division                           is by Dawn Zgorski , Michael Arbuco, and
                                                     SAC                              some of the OIFD SACs.




      Allegation          No                  Does allegation
        closed.
                                              meet materiality
      Archived in
                                                threshold?
      database.

                                             Yes



                                             Case assigned to                                       Yes
                                                                                Duplicate                       Original case
                                             agent. Database
                                                                                 case?                            updated.
                                             search performed .




                                                Form OI-1 is              No
                                               completed and
                                             signed by the SAC
                                                to open case
Case numbers like allegation numbers                                                                              Allegation
are unique to each Field Division. No two                                                                         closed and
field divisions will have the same case                                                                           archived in
numbers.                                                                                                          database.
                                              Allegation info is
                                               transferred to
                                                   ACIS.



                                                                                  Field Division performs search of database to
                                                                                ensure not duplicate case. It is possibe to have 2
Note: The external case file must            Computer assigns                      allegations that would equate to 1 case or 2
contain a signed OI-1& OI-9 as well as        a unique case                    allegations for the same subject that could result in
supporting documentation for monetary            number.                          2 different cases based upon the nature of the
achievements reported in ACIS.                                                                         case.



                                                    Agent
                                                   prepares
                                                      an
                                                   external
                                                      file




                                                     To
                                                    Page
                                                      4




                                            Investigation Process cont.


                                                                   E-6
                                                                                           APPENDIX D
                                                                 From
                                                                 Page
                                                                   3




                                                             Investigative
                                                             activities are
                                                          documented in the
                                                          external case files
                                                           by investigative
                                                                 agent




                                                          External case files
                                                            are periodically
                                                            reviewed by the
                                                             SAC using the
                                                          review by interview
                                                                process




                                                             SAC agrees               No
Note: Both form OI-1 & OI-9 are required to be
in the external case files appropriately signed by          case should be
the SAC. Forms OI-1 & OI-9 can be located                      closed?
on-line, however, they will not be signed and do
not support proper authorization for opening
and closing cases.
                                                                        Yes



                                                              Form OI-9 is
                                                            completed and
                                                          signed by the SAC
                                                             to close case




 Documentation of monetary,
 conviction, unresolved, and/or                      Agent or Administrative Clerk
 SSN misuse type information is                      updates ACIS with monetary,
 maintained in the external case                     conviction, unresolved, and/or
 files.                                              SSN misuse type information




                                                                Case is
                                                            marked closed
                                                            and archived in
                                                             the database




                                                        E-7
                                                   APPENDIX D
Payment Process


   Payment made to Clerk
     of the Court in the
   Appropriate Jurisdiction




    Payment recorded in
    Department of Justice
     records for reporting
          purposes




 Payment mailed to SSA Mid-
  Atlantic Program Service
  Center in Philadelphia, PA




                              Yes     Apply payment to SSN the
                                    fraud was committed against
       SSA Payment?
                                       in the Debt Management
                                                System

                   No

      Payment returned
      to Department of
           Justice




          E-8
                                                                                                                                                                                                     APPENDIX E

                                                                        PERFORMANCE MEASURE TAXONOMY



                                                                                        Categories of Performance Measures:

Efforts are the amount of financial                                                                                                                                                            These indicators measure the
and nonfinancial resources (in                                                                                                                                                                 resources used or cost (for
terms of money, material, and so                                                                       2) Measures of                                            3) Measures that relate       example, in dollars, employee-
forth) that are put into a program       1) Measures of efforts                                                                                                                                hours, or equipment used) per
or process. Measures of service
                                                                                                      accomplishments                                          efforts to accomplishments      unit of output. They provide
efforts also include ratios that                                                                                                                                                               information about the production
compare financial and                                                                                                                                                                          of an output at a given level of
nonfinancial resources with other                                             Accomplishment measures report                                                                                   resource use and demonstrate an
measures that may indicate                                                    what was provided and achieved                                                                                   entity's relative efficiency when
potential demand for services,                                                with the resources used.                                                                                         compared with previous results,
such as general population,                                                                                                                                                                    internally established goals and
service population, or lane-miles                                                                                                                                                              objectives, generally accepted
                                                                                              Outputs measure the quantity of services provided;
of road.                                                                                                                                                                                       norms or standards, or results
                                                                                              outcomes measure the results of providing those
                                                                                                                                                                                               achieved by similar jurisdictions.
                                                                                              outputs.


                                                                                                                                                                                        Cost–outcome measures that relate
 Financial resources that are put into a
                                                                                                                                                                                             efforts to the outcomes
          program or process
                                                                                                                                                                                              or results of services
                                                                                   Output measures




  Non-financial resources that are put                                                                                                        Outcome measures                         Efficiency measures That relate efforts
            into a program                                                                                                                                                                           to outputs
              or process                                                                                                                                                                            of services


                                                                                                                                         These indicators measure
                                                                                                                                         accomplishments or results that occur (at
                                                Quantity of a service provided                                                           least partially) because of services
                                                                                                       Quantity of a service
                                                 that meets a certain quality                                                            provided. Results also include measures
                                                                                                            provided
                                                        requirements                                                                     of public perceptions of outcomes. For
                                                                                                                                         example, measures may include the
                                                                                                                                         percentage of students achieving a
                                                                                                                                         specified skill-level gain in reading; the
                                      These indicators measure the physical quantity of          These indicators measure the
                                                                                                                                         percentage of the population being served
                                      a service provided that meets a test of quality. For       physical quantity of a service
                                                                                                                                         by public transportation; the percentage of
                                      example, measures may include the percentage of            provided. For example, measures
                                                                                                                                         lane-miles of road in excellent, good, or
                                      students graduated or promoted who have met a              may include the number of
                                                                                                                                         fair condition; and the clearance rate for
                                      minimum prespecified standard of achievement;              students promoted or graduated;
                                                                                                                                         serious crimes or the percentage of
                                      the percentage of buses meeting a prespecified             the number of passenger miles
                                                                                                                                         residents rating their neighborhood as
                                      on-time standard of achievement; the percentage            provided by public transit; the
                                                                                                                                         safe or very safe.
                                      of lane-miles of road repaired to a certain minimum        number of lane-miles of road
                                      satisfactory condition; and the percentage of              repaired; and the number of crimes                        Adapted from GPRA, GASB Concept No. 2, and the
                                      criminal investigations performed that result in the       investigated.                                           "Performance Measurement for Government" web site at
                                      identification of prime suspect.                                                                                                    Rutgers University
                                                                                                                                                         www.rutgers.edu/Accounting/raw/seagov/pmg/index.html
                           DISTRIBUTION SCHEDULE



                                                                            No. of
                                                                            Copies

Commissioner of Social Security                                               1
Management Analysis and Audit Program Support Staff, OFAM                    10
Inspector General                                                             1
Assistant Inspector General for Investigations                                1
Assistant Inspector General for Executive Operations                          3
Assistant Inspector General for Audit                                         1
Deputy Assistant Inspector General for Audit                                  1
 Director, Systems Audit Division                                             1
 Director, Financial Management and Performance Monitoring Audit Division     1
 Director, Operational Audit Division                                         1
 Director, Disability Program Audit Division                                  1
 Director, Program Benefits Audit Division                                    1
 Director, General Management Audit Division                                  1
Issue Area Team Leaders                                                      25
Income Maintenance Branch, Office of Management and Budget                    1
Chairman, Committee on Ways and Means                                         1
Ranking Minority Member, Committee on Ways and Means                          1
Chief of Staff, Committee on Ways and Means                                   1
Chairman, Subcommittee on Social Security                                     2
Ranking Minority Member, Subcommittee on Social Security                      1
Majority Staff Director, Subcommittee on Social Security                      2
Minority Staff Director, Subcommittee on Social Security                      2
Chairman, Subcommittee on Human Resources                                     1
Ranking Minority Member, Subcommittee on Human Resources                      1
Chairman, Committee on Budget, House of Representatives                       1
Ranking Minority Member, Committee on Budget, House of Representatives        1
Chairman, Committee on Government Reform and Oversight                        1
Ranking Minority Member, Committee on Government Reform and Oversight         1
Chairman, Committee on Governmental Affairs                                   1
Ranking Minority Member, Committee on Governmental Affairs                    1
Chairman, Committee on Appropriations, House of Representatives              1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                    1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                    1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                    1
Chairman, Committee on Appropriations, U.S. Senate                           1
Ranking Minority Member, Committee on Appropriations, U.S. Senate            1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate              1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                 1
Chairman, Committee on Finance                                               1
Ranking Minority Member, Committee on Finance                                1
Chairman, Subcommittee on Social Security and Family Policy                  1
Ranking Minority Member, Subcommittee on Social Security and Family Policy   1
Chairman, Senate Special Committee on Aging                                  1
Ranking Minority Member, Senate Special Committee on Aging                   1
Vice Chairman, Subcommittee on Government Management Information
  and Technology                                                             1
President, National Council of Social Security Management Associations,
  Incorporated                                                                1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                                1
Social Security Advisory Board                                                1
AFGE General Committee                                                        9
President, Federal Managers Association                                      1
Regional Public Affairs Officer                                              1


Total                                                                        97
                   Overview of the Office of the Inspector General


                                         Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration's (SSA) programs and makes recommendations to ensurethat
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assesswhether SSA' s financial statementsfairly present
the Agency's financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA' s programs. OA also conducts short-term
managementand program evaluations focused on issues of concern to SSA, Congress, and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.

                               Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG) by
providing information resource management; systemssecurity; and the coordination of budget,
procurement, telecommunications, facilities and equipment, and human resources. In addition,
this office is the focal point for the OIG's strategic planning function and the development and
implementation of performance measuresrequired by the Government Performance and Results
Act. OEO is also responsible for performing internal reviews to ensure that OIG offices
nationwide hold themselves to the samerigorous standardsthat we expect from the Agency, as
well as conducting employee investigations within OIG. Finally, OEO administers OIG's public
affairs, media, and interagency activities and also communicates OIG's planned and current
activities and their results to the Commissioner and Congress.

                                    Office of Investigations
The Office of Investigations (01) conducts and coordinates investigative activity related to fraud.
waste, abuse,and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees,third
parties, and by SSA employees in the performance of their duties. Or also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: l) statutes,regulations, legislation, and policy directives
governing the administration of SSA ' s programs; 2) investigative procedures and techniques; and
3) legal implications and conclusions to be drawn from audit and investigative material produced
by the DIG. The Counsel's office also administers the civil monetary penalty program.
